NO. 20-1254

In the
Supreme Court of the United States
ESTATE OF BASAVAPUNNAMMA K. RAO,

Deceased.
PADMA RAO,

Petitioner,
v.
MIDLAND TRUST COMPANY, AS THE COURT-APPOINTED
SUCCESSOR SUPERVISED ADMINISTRATOR WITH THE WILL ANNEXED,

Respondent.
__________________________

On Petition for a Writ of Certiorari to the
Illinois Appellate Court, First District
BRIEF IN OPPOSITION

MARK R. SINGLER

COUNSEL OF RECORD

KATHRYN T. MCCARTY
PAUL S. FRANCISZKOWICZ
MICHAEL T. WURSTER
FMS LAW GROUP LLC

200 W. MONROE ST., SUITE 750
CHICAGO, IL 60606
(312) 332-6381
MARK.SINGLER@FMSLAWGROUP.COM
APRIL 8, 2021

COUNSEL FOR RESPONDENT

i
QUESTION PRESENTED
Whether the Petitioner, Padma Rao (“Padma” or
“Petitioner”), as an heir and legatee of Basavapunnamma
K. Rao (“Decedent”) in a probate Estate, was deprived
of her rights under the Due Process Clause when the
Illinois Appellate Court dismissed her Appeal of the
Probate Court’s Orders (approving the settlement of
the Estate’s Wrongful Death Act and Survival Act
causes of action) for lack of standing where Illinois
case law clearly dictates that it is the administrator
of an estate (and not the estate heirs or beneficiaries)
that has the sole control and right of action over an
estate’s Wrongful Death Act and Survival Act causes
of action.

ii
PARTIES TO THE PROCEEDINGS AND
CORPORATE DISCLOSURE STATEMENT
Petitioner
●

Padma Rao is a daughter, heir and legatee of
the Decedent.

Respondent
●

Midland Trust Company (“MTC” or “Respondent”), as the Court-appointed Successor
Supervised Administrator with the Will
Annexed of the Estate of Basavapunnamma
K. Rao, Deceased. (“Estate”).

●

The parent organization of MTC is Midland
States Bank, whose parent organization is
Midland States Bancorp, Inc. (NASDAQ: MSBI),
a community-based financial holding company
headquartered in Effingham, Illinois, which
is the sole shareholder of Midland States
Bank, which is the sole shareholder of Midland
Trust Company. No public company owns
greater than 10% of MSBI’s stock.

Others
●

Anita Rao (“Anita”) is a daughter, heir and
legatee of the Decedent.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................... i
PARTIES TO THE PROCEEDINGS ......................... ii
TABLE OF AUTHORITIES .................................... viii
STATEMENT OF THE CASE .................................... 1
A. Probate Proceedings ......................................... 1
B. Lawsuit in Law Division Proceedings ............. 1
C. Removal of Padma as Administrator for
Cause/Appointment of MTC as Successor
Administrator ................................................... 6
D. Approval of Settlement of the Lawsuit in
the Probate Proceedings .................................. 9
E. Padma’s Appeal-Illinois Appellate Court ...... 16
F. MTC’s Motion to Dismiss Appeal–Illinois
Appellate Court .............................................17
G. Padma’s Petition for Rehearing–Illinois
Appellate Court .............................................18
H. Padma’s Petition for Leave to AppealIllinois Supreme Court ................................ 18
I.

Padma’s Petition for a Writ of Certiorari ...... 19

REASONS FOR DENYING CERTIORARI ............. 20
I.

THE ADMINISTRATOR ALONE POSSESSES THE
SOLE RIGHT OF ACTION OR CONTROL OVER A
WRONGFUL DEATH ACT AND SURVIVAL ACT
CAUSE OF ACTION ............................................ 20
A. The Probate Court’s January 15, 2019
Order Did Not Grant Padma Standing
Regarding the Law Division Lawsuit ...... 21

iv
TABLE OF CONTENTS – Continued
Page
B. Padma, Individually, Does Not Have a
Property Interest in the Law Division
Action ........................................................ 23
i.

Padma, as an Heir or Legatee, Lacks
Standing as to Any Right of Action
or Control Over the Lawsuit ............... 23

ii. Padma Is Judicially Estopped from
Advancing Her Position as to Her
Individual Standing as to Her Right
of Action or Control Over the
Lawsuit ................................................ 26
iii. Padma, While Acting as Administrator of the Estate, failed to File Written
Objections to or Appeal of the Settlement and Distribution Orders, and
Her Motion to Vacate Said Orders
Constituted an Improper Attempt to
Satisfy Her Own Personal Wish to
Go to Trial ............................................ 27
C. The Illinois Appellate Court’s Orders
Do Not Conflict with Decisions of This
Court, as Padma Does Not Have a
Property Interest in the Law Division
Action ........................................................ 29
II. PADMA POSSESSES NO PROPERTY INTEREST
THAT WAS DEPRIVED OF PROCEDURAL DUE
PROCESS BY THE ILLINOIS APPELLATE
COURT ............................................................. 31
A. There Is No Conflict Between the
Illinois Appellate Court’s Orders and
Powell................................................... 31

v
TABLE OF CONTENTS – Continued
Page
B. Padma Is Not “Helpless” in This Matter..... 32
III. THERE IS NO COMPELLING REASON FOR
THIS COURT’S REVIEW ................................ 34
CONCLUSION.......................................................... 36

vi
TABLE OF CONTENTS – Continued
Page
RESPONDENT APPENDIX
TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Circuit Court of Cook County,
Law Division (August 23, 2018) ......................... 1a
Distribution Order of the Circuit Court of Cook
County, Law Division (September 10, 2018) ..... 3a
Order of the Circuit Court of Cook County,
Probate Division (May 22, 2019)........................ 8a
Order of the Circuit Court of Cook County,
Probate Division (July 2, 2019)........................ 10a
Order of the Circuit Court of Cook County,
Illinois Law Division (July 3, 2019) ................. 12a
OTHER DOCUMENTS
Motion to Convert to Supervised Administration
(November 16, 2018) ........................................ 14a
Motion to Remove Padma Rao as Independent
Administrator (November 16, 2018) ................ 18a
Colloquy of Judge Deglado, Circuit Court of Cook
County, Illinois (December 19, 2018) .............. 29a
Petition to Clarify This Court’s December 19,
2018 Ruling (January 11, 2019)....................... 34a
Padma Rao’s Motion to Reconsider Ruling on
Midland Trust Request for Direction
(May 30, 2019) .................................................. 43a

vii
TABLE OF CONTENTS – Continued
Page
MTC’s Response to Padma Rao’s Motion to
Reconsider Ruling on Midland Trust Request
for Direction (June 19, 2019) ........................... 47a
MTC Answer to the Appellant Petition for Leave
to Appeal Pursuant to Supreme Court Rule
315 (May 28, 2020) ........................................... 62a

viii
TABLE OF AUTHORITIES
Page
TABLE OF AUTHORITIES

CASES

Fuentes v. Shevin,
407 U.S. 67 (1972) ............................................. 29

Goldberg v. Kelly,
397 U.S. 254 (1970) ........................................... 29

In re Estate of Powell,
IL 115997 (2014).......................................... 31, 32

Memphis Light, Gas & Water Div. v. Craft,
436 U.S. 1 (1978) ................................................ 29

Smeilis v. Lipkis,
103385 IL App (1st Dist. 2012)............................ 26

Will v. Northwestern University,
881 N.E.2d 481, 378 Ill.App.3d 280,
317 Ill.Dec. 313 (1st Dist. 2007)................ passim

Wolff v. McDonnell,
418 U.S. 539 (1974) ............................................. 29
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. XIV ................................ 20, 32, 35
JUDICIAL RULES
Ill. Cir. Ct. R. 12.15 ................................................... 10
Ill. Cir. Ct. R. 6.5 ....................................................... 10

1

STATEMENT OF THE CASE
A.

Probate Proceedings

The Petition for a Writ of Certiorari (“Petition”)
arises from a probate proceeding, the Estate, in the
Circuit Court of Cook County, Illinois, Probate Division,
Case No. 2013P624 (“Probate Proceedings”). On October 17, 2013, the Decedent died unmarried and was
survived by two (2) adult heirs, namely, her daughters:
Anita and Padma. On November 25, 2013, the
Decedent’s Last Will and Testament was admitted to
probate and Padma was appointed as Independent
Administrator with Will Annexed.
B.

Lawsuit in Law Division Proceedings

On or about December 8, 2014, Padma, as the
then Independent Administrator of the Estate, filed
a lawsuit alleging medical malpractice (“Lawsuit”)
against NorthShore University HealthSystem (“Northshore”) and four employee physicians of Northshore
in the Circuit Court of Cook County, Law Division,
Case No. 2014L12745 (“Law Division Proceedings”).
The Lawsuit included separate counts under the
Wrongful Death Act and Survival Act.
On August 23, 2018, after the culmination of multiday mediation with retired judge Michael Panter and
ongoing pre-trial conferences on August 22 and 23,
2018 with Judge Thomas V. Lyons, II (“Judge Lyons”),
the presiding judge overseeing the Lawsuit, Judge
Lyons entered an Order (“Settlement Order”), which
stated that:

2
(i)

Padma, acting as Independent Administrator
of the Estate, agreed to accept the Defendants’
offer of a $2.1 Million settlement (“Settlement”);
and

(ii) the Law Division Court, “knowing and understanding the allegations of this case and the
likely evidence in this case, finds said settlement offer to be fair and reasonable.”
(Res.App.2a).1
On September 5, 2018, after Padma, as the Independent Administrator, had agreed, on behalf of the
Estate and its beneficiaries, to a $2.1 Million Settlement, the remaining Parties to the Lawsuit appeared
before Judge Lyons on the original scheduled trial date
for a status hearing. (Pet.App.18a). During that status
hearing, Padma submitted an ex parte communication to Judge Lyons, which stated: “I did not and
do not assent to settlement. I wish to go to trial.”
(Pet.App.18a). It was also during that status hearing
that Padma first alleged that she, as the Independent
Administrator, was not able to settle the Lawsuit due
to the Decedent’s Hindu beliefs. (Pet.App.18a). Judge
Lyons quickly admonished Padma for alleging she
had previously raised religious beliefs as a reason for
objecting to the Settlement and confirmed that at no
point during the Law Division Proceedings and specifically during the pre-trial conferences, either in his
chambers or in open court, was religion, and particularly Hinduism, ever mentioned by Padma. (Pet.App.
18a). After a lengthy discussion on the record, Judge
1 “Res.App.” refers to the Respondent’s Appendix in the Brief in
Opposition, infra. “Pet.” Refers to the body of the Petition for Writ
of Certiorari, while “Pet.App.” refers to the Petitioner’s appendix.

3
Lyons ordered that the terms of the August 23, 2018
Settlement of $2.1 Million, which Padma, as the
Independent Administrator, had negotiated and agreed
to, would stand and instructed the Parties to return
on September 10, 2018 for presentation of the proposed
Petition for Distribution pursuant to the Settlement
Order. (Pet.App.18a).
On September 10, 2018, after Padma, as the
then Independent Administrator, personally negotiated
the Wrongful Death Act settlement proceeds allocation
against Anita and disproportionately in her own individual favor, Judge Lyons entered a detailed, typewritten, three-page Distribution Order (“Distribution
Order”) which:
(i)

approved the total Settlement of $2.1 Million
and found that the Settlement was fair and
reasonable;

(ii) approved attorney fees and costs in the
amount of $771,447.81;
(iii) approved the Survival Act Claim and distribution to the Estate in the amount of
$1,012,223.44;
(iv) approved the Wrongful Death Act Claim
and distribution of the Wrongful Death Act
settlement proceeds in the negotiated amount
of $221,430.13 to Padma (70% of the total
$316,328.75 Wrongful Death Act settlement
proceeds);
(v) approved the Wrongful Death Act Claim and
distribution of the Wrongful Death Act settlement proceeds in the amount of $94,898.62 to

4
Anita (30% of the total $316,328.75 Wrongful
Death Act settlement proceeds);
(vi) dismissed the Lawsuit, with prejudice, as all
matters between the Estate, Padma, Anita
and the Defendants had been fully compromised, settled and adjourned; and
(vii) approved of Padma withdrawing as Independent Administrator to allow a Bank to
substitute in on behalf of the Estate to
execute any Release documents to finalize
the Settlement and Lawsuit.
(Res.App.3a-9a).
On October 10, 2018, in the Law Division Proceedings, Padma, as the then Independent Administrator,
on behalf of the Estate, filed a Motion to Vacate
the Settlement (“Motion to Vacate”). (Pet.App.19a).
Based on unsubstantiated allegations of the Decedent’s
religious objections to settlement, Padma’s Motion to
Vacate sought to vacate the following Orders related
to the $2.1 Million Settlement: August 22, 2018;
August 23, 2018 Settlement Order; September 5, 2018;
and September 10, 2018 Distribution Order. (Pet.
App.19a). On October 29, 2018, in the Law Division
Proceedings, Padma, as Independent Administrator
of the Estate, filed her Plaintiff’s Memorandum in
Support of the Motion to Vacate. (Pet.App.19a).
On November 19, 2018, in the Law Division Proceedings, Anita filed her Motion for Sanctions and

Rule to Show Cause as to Why Padma Rao, M.D.,
Robert H. Muriel, and A&G Law LLC Should Not Be
Held in Direct Contempt of Court (“Anita’s Motion

for Sanctions”), seeking sanctions against Padma
and her attorney on the basis of Padma’s false repre-

5
sentations to the Court on September 5, 2018, which
were further represented by Padma in an Affidavit
and Memorandum, wherein Padma alleged that she:
(1) previously advised the Court of her objections to
any settlement; (2) had been threatened with being
replaced by Anita as Administrator; (3) was
pressured and forced to accept settlement; (4) was
not advised of the settlement process; and (5) was
not adequately represented by counsel.
In her December 10, 2018 response to Anita’s
Motion for Sanctions, Padma, as the Independent
Administrator, relied upon Will v. Northwestern
University, 881 N.E.2d 481, 492, 378 Ill.App.3d 280,
317 Ill.Dec. 313 (1st Dist. 2007), to argue that only
the Administrator of the Estate (herself at the time)
has any power to control the Wrongful Death and
Survival actions and that the Court should strike
Anita’s Motion for Sanctions on the basis that Anita,
as a non-party to the Lawsuit, lacked standing:
Anita Rao was not a party to the instant
medical malpractice lawsuit. She has no
divisible or independent cause of action.
Only Dr. Rao, as the administrator of the
Estate, has the power to control the action.
Anita Rao lacks standing in this lawsuit. As
such, any court filing by her in this cause
was without authority and should be stricken.
The Estate requests that this Court strike
the appearance and Sanctions Motion filed
by Anita Rao.
(Pet.App.25a-26a, ¶ 28).

6
C.

Removal of Padma as Administrator for Cause/
Appointment of MTC as Successor Administrator

On November 16, 2018, in the Probate Proceedings, Anita filed her Motion to Remove Padma Rao
as Independent Administrator (“Motion to Remove
Padma”) based upon: misrepresentations Padma made
as Administrator of the Estate to Judge Lyons in the
Law Division Proceedings related to the $2.1 Million
settlement; waste and mismanagement of the Estate;
and Padma’s inability to act in the best interests of
the Estate. (Res.App.19a-28a)
Also on November 16, 2018 in the Probate Proceedings, Anita filed her Motion to Convert to Supervised
Administration (“Motion to Terminate Independent
Administration”), requesting that the Probate Court
protect the Estate beneficiaries by converting the
administration from Independent to Supervised
Administration because of Padma’s actions of waste,
mismanagement and inability to act in the best
interests of the Estate beneficiaries. (Res.App.15a-16a)
On November 29, 2018, the Probate Court, agreeing with Anita’s allegations of Padma’s waste and
mismanagement as Independent Administrator,
entered an Order converting the Estate from Independent to Supervised Administration, thus converting
Padma’s role from Independent to Supervised Administrator. (Pet.App.19a-20a, ¶ 11).
On December 19, 2018, after a full hearing, the
Probate Court concluded that Padma, as Administrator,
created waste and mismanaged the Estate and was
therefore incapable and unsuitable to act as the
Administrator. (Pet.App.20a, ¶ 12). The Court specifically stated:

7
You were the administrator of this estate.
You hired the attorneys to file and adjudicate
the cause of action before Judge Lyons. You
could fire them at any time. You’re the
administrator. You didn’t do that. There have
been numerous negotiations not only before
Judge Lyons, not only amongst the attorneys, but there was also a mediation done
by a retired judge. Those are not inexpensive.
So now, even though Ms. Rao is claiming
that she never wanted to settle and she
wanted to go to a jury trial, she allowed the
attorneys, who she was in charge of as administrator of the estate, to rack up considerable
costs by entering into mediation with a retired
judge and continuing on and extending the
life of this case because she continued to
have negotiations in front of Judge Lyons.
All the while, according to her, she never
wanted to settle, she would never agree to
anything . . .
[...]
The negotiations to settle with the mediation
conference and conferences between the
lawyers and court dates before Judge Lyons
I think constitutes waste and mismanagement
of the estate. And I think for that, and that
alone, I could remove Ms. Rao. But the other
question that I have to answer, which I also
talked about a little bit earlier, is, is she
capable or suitable for the discharge of her
duties? Not just her, is someone capable if
their religious beliefs is that they can never
settle? Because when you are the admin-

8
istrator of an estate, you represent all of the
heirs, and you have a fiduciary duty to all
of the heirs. You also have a duty to the
court. The court has appointed you as the
administrator. So if someone–if that’s
someone’s position and they’re never going
to come off that position, are they suitable
or capable to discharge their duties?
[...]
And I understand that those are your religious beliefs. And I believe you, that those
are your religious beliefs. But my duty is
to the estate. And my question that I have
to answer is, can you suitably and capably
administer the estate with those beliefs.
And I think the answer is no. So in combination, although I did look at both of these,
incapable, unsuitable discharge the duties
and whether there was waste and mismanagement, I found that both of those exist independently, but I can also consider them
cumulatively when I decided whether or not
to discharge Ms. Rao as the independent
executor. And that is my ruling. Based on
everything that I have just stated, I believe
that she did engage in waste and mismanagement by continuing the negotiations. And I
do believe, based on her stance for religious
beliefs, that she is incapable and unsuitable
for the discharge of her duties.
(Res.App.30a-32a).
As a result of Padma’s waste and mismanagement
of the Estate, the Probate Court deemed her incapable

9
and unsuitable as Administrator and therefore removed
Padma as Supervised Administrator for cause. (Pet.
App.20a, ¶ 12). Also on December 19, 2018, the Probate
Court appointed Respondent, MTC, as Successor
Supervised Administrator with Will Annexed. (Pet.
App.20a, ¶ 13).
D.

Approval of Settlement of the Lawsuit in the
Probate Proceedings
On January 11, 2019, Padma filed her Petition to

Clarify This Court’s December 19, 2018 Ruling

(“Padma’s Petition for Clarification”) (Res.App.34a),
which sought the following relief:
A.

This Court will supervise and provide
direction to Midland Trust relative to the
Law Division action, including whether to
proceed with the pending Motion to Vacate
the purported $2,100,000.00 settlement or
to withdraw said motion;

B.

Padma Rao has standing to object and present
evidence as to Midland Trust’s proposed
direction as to whether to proceed with the
pending Motion to Vacate the purported
$2,100,000.00 settlement or to withdraw said
motion;

C.

Padma Rao has standing to address this
Court regarding its supervision of Midland
Trust, including the Court’s direction and
approval of distributions, as well as, objecting
and presenting evidence as to any petition
brought before this Court to approve any
purported settlement in the Law Division
Action;

10
(Res.App.41a).
On January 15, 2019, after a full hearing, the
Probate Court entered an Order which “denied in
part and approved in part” Padma’s Petition for
Clarification as follows: “Paragraph A and B of the
wherefore provisions are denied pursuant to Circuit
Court rules 12.15 and 6.52; and Paragraph C is
granted as to Padma Rao having standing as an heir
and legatee as to any Petition filed before the Probate
Court.” (Pet.App.11a, ¶ 12). Thus, Padma’s Petition
creatively and disingenuously misleads this Court by
purposely failing to identify that the January 15,
2019 Order specifically:
(1) denied Padma’s request that “This Court
will supervise and provide direction to
Midland Trust relative to the Law Division
action, including whether to proceed with
the pending Motion to Vacate the purported
$2,100,000.00 settlement or to withdraw
said motion;” and
(2) denied Padma’s request that “Padma Rao
has standing to object and present evidence
as to Midland Trust’s proposed direction as
to whether to proceed with the pending
2 Rule 12.15 requires that when a wrongful death cause of action
pending before another Court is settled by a representative
appointed by the Probate Court, the representative shall file a
petition to receive the proceeds pursuant to Rule 6.5, present
vouchers for expenses, and the Probate Court shall close the
Estate if there are no other Estate assets. Rule 6.5 limits the
Probate Court to distributing the proceeds based on dependency,
authorizing the representative to receive the distributable amount,
fixing bonds, and requiring vouchers.

11
Motion to Vacate the purported $2,100,000.00
settlement or to withdraw said motion;
Although Paragraph C of the January 15, 2019
Order provided Padma limited standing as an heir
and legatee as to any petition filed before the Probate
Court, the January 15, 2019 Order specifically denied
Padma standing to object and present evidence related
to the Motion to Vacate or to withdraw the motion.
Also on January 15, 2019, the Probate Court
ordered MTC, as Successor Supervised Administrator,
to investigate whether the Settlement of the Lawsuit
was fair, reasonable and in the best interests of the
Estate. (Pet.App.11a, ¶ 11).
On April 11, 2019, after a thoroughly extensive
independent investigation, MTC, under seal for confidentiality purposes, presented its detailed Report to
the Court and Request for Direction (“MTC’s Report
to Court”), which first explained its due diligence in
the preparation of the Report, including: (1) MTC’s
independent investigation of the Law Division Settlement, including a review of all relevant pleadings in
the Law Division Proceedings, all supporting information and documentation compiled by the personal
injury attorneys, including their confidential analysis
of the strengths and weaknesses of its case; (2) interviews with the personal injury attorneys, Anita’s
attorney, Padma’s Estate Attorney, and a former Rao
family attorney and close personal friend of Padma
(notably, Padma and her attorney refused multiple
attempts for an interview); (3) the independent expert
legal opinion of Honorable Thomas K. Hogan (“Judge
Hogan”) (retired Cook County Law Division Judge);
and (4) the independent expert legal opinion of Attorney Thomas K. Prindable (“Prindable”), a practicing

12
medical malpractice personal injury attorney since
1973.
Based on MTC’s thorough due diligence and
independent investigation, MTC’s Report to Court
recommended that the Probate Court:
(a) find that the Settlement Order and the
Distribution Order ( i.e., the $2.1 Million
Settlement) are fair, reasonable, and in the
best interests of the Estate;
(b) find that, as the Settlement Order and Distribution Order shall stand, Padma’s Motion
to Vacate in the Law Division Proceedings
is moot; and
(c)

direct MTC, as Successor Supervised Administrator, to dismiss the Motion to Vacate
filed by Padma while acting as the former
Administrator with Will Annexed, with prejudice, based upon its mootness.

On April 11, 2019, the Probate Court entered an
Order granting Padma 28 days (i.e., until May 9,
2019) to respond or otherwise plead to the Report to
Court. (Pet.App.21a) Because Padma failed to file a
responsive pleading to the Report to Court by the
deadline, on May 16, 2019, MTC filed its Petition for

Ruling on Report to the Court and Request for
Direction (“Petition for Ruling”), to be presented to

the Probate Court on May 22, 2019, seeking an
Order: (a) denying any request by Padma for extension
of time to file a response to the Report to Court; (b)
striking any responsive pleading filed after the May
9, 2019 deadline; (c) approving and accepting MTC’s
Report; and (d) directing MTC as to the outstanding
issues outlined in the Report. (Pet.App.21a)

13
On May 22, 2019, the Probate Court entered an
Order giving Padma leave to file her Response and
Objection to MTC’s Report to Court, instanter.
(Res.App.8a, ¶ 2). Notwithstanding Padma’s Response
and Objection to MTC’s Report to Court, filed instanter,
and after a full oral argument where Padma zealously
but disingenuously argued that the Settlement was
against the Decedent’s wishes, the Probate Court,
finding that it is in the best interests of the Estate,
entered an Order authorizing MTC, as Successor
Supervised Administrator, to withdraw the Motion to
Vacate filed by Padma, as former Administrator, that
was still pending in the Law Division Proceedings.
(Res.App.9a, ¶ 3).
On May 30, 2019, Padma filed her Motion to

Reconsider Ruling on Midland Trust Request for
Direction (“Motion to Reconsider”), requesting that

the Probate Court direct MTC to proceed on the
Motion to Vacate in the Law Division Proceedings on
the basis that MTC’s recommendation to withdraw
the Motion to Vacate was contrary to the Decedent’s
wishes and, thus, not in the best interests of the
Estate. (Res.App.43a-45a).
On June 19, 2019, MTC filed its Response to

Padma Rao’s Motion to Reconsider Ruling on Midland
Trust’s Request for Direction (“Response to Motion to

Reconsider”) (Res.App.47a-61a), requesting that the
Probate Court deny Padma’s Motion to Reconsider
because: (1) it did not raise newly discovered evidence
not available at the time of hearing; (2) it did not
raise changes in the law; and (3) there were no errors
in the Probate Court’s previous application of existing
law, as: (a) the Decedent’s Last Will and Testament
is unambiguous in that it failed to specifically address

14
any alleged religious wishes/beliefs or any alleged
wishes with respect to litigation and is clear by specifically authorizing the Executor/Trustee, in his or
her absolute discretion, to convert the Estate’s interest
in the Lawsuit into money via the Settlement; (b) any
attempted testimony by Padma as to the Decedent’s
alleged religious beliefs and alleged wishes related to
settling claims, including the Lawsuit, is barred by
the Dead Man’s Act; and (c) pursuant to the Probate
Act, MTC, as Successor Supervised Administrator,
was authorized by the Court to withdraw the Motion
to Vacate in the Law Division Proceedings and to
settle the Lawsuit, in the best interests of the Estate.
On July 2, 2019, after a full oral argument, the
Probate Court entered an Order denying Padma’s
Motion to Reconsider “for the reasons on the record.”
(Res.App.11a, ¶ 1). Specifically, the Probate Court
denied Padma’s Motion to Reconsider because Padma
presented no new evidence; Padma cited no changes
in applicable law; and the Probate Court did not err
in its previous application of existing law. The Probate
Court agreed with MTC that the Decedent’s Last
Will and Testament was not ambiguous regarding
settlement. The Probate Court, in denying the Motion
to Reconsider, further found that, pursuant to Will v.
Northwestern: (1) the administrator has a duty to
perform the tasks associated with administering the
estate (i.e., they were to carry out the wishes of the
decedent, and more importantly, to act in the best
interests of the estate); (2) the administrator is required to uphold its fiduciary relationship to the
estate’s beneficiaries and to act in the utmost good
faith to protect their interests; and (3) the purpose of
the wrongful death and survival actions is to provide

15
beneficiaries with pecuniary benefits they would have
received from the deceased had her life continued.
Thus, as the Decedent’s Last Will and Testament
was not ambiguous regarding settlement, even if
the Decedent’s wishes could be inferred from her
external sources, the Probate Court found that Will
v. Northwestern stands for the proposition that the
administrator alone has a fiduciary duty to act in the
best interests of the Estate heirs/beneficiaries.
The July 2, 2019 Order entered by the Probate
Court also provided MTC the authority, as the
Successor Supervised Administrator, to proceed to
withdraw the Motion to Vacate in the Law Division
Proceedings. (Res.App.11a).
On July 3, 2019, in the Law Division Proceedings,
Judge Lyons entered an Order wherein:
(1) MTC was granted leave to withdraw the
pending Motion to Vacate, with prejudice,
for the reasons stated on the record;
(2) the Settlement Order and the Distribution
Order were ratified for the reasons also
stated on the record; and
(3) the matter was transferred back to the
Probate Court for approval of the Settlement
of the Lawsuit and to effectuate the Settlement Order and Distribution Order. (Res.
App.13a).
Also on July 3, 2019, the Probate Court entered
an Order approving the Settlement and Distribution
Orders, approving and authorizing the payout of the
Settlement proceeds pursuant to the Distribution
Order, and authorizing MTC to execute any and all

16
documents reasonable and necessary to effectuate
the Settlement and Distribution Orders. (Pet.App.5a6a).
E.

Padma’s Appeal-Illinois Appellate Court

On July 11, 2019, Padma, individually and as
beneficiary of the Estate, filed her Amended Notice of
Appeal (“Appeal”) with the Illinois Appellate Court–
First District, Case No. 1-19-1427 (“Appellate Court”)
(Pet.App.23a), which sought the following relief:
(a) Reversal and vacating paragraphs 1 and 2
of the Probate Court’s July 3, 2019 Order
approving the Settlement Order entered in
the Law Division Proceedings and approving
the Distribution Order entered in the Law
Division Proceedings;
(b) Reversal and vacating prior orders necessary
to bring about the Probate Court’s July 3,
2019 Order approving the settlement and
distribution, including paragraph 2 of the
July 2, 2019 Order regarding the denial of
Padma’s Motion to Reconsider the May 22,
2019 Order allowing MTC to withdraw the
Motion to Vacate Settlement;
(c)

Reversal of the July 2, 2019 Order regarding
denial of Padma’s Motion to Reconsider as
to the May 22, 2019 Order allowing MTC to
withdraw the Motion to Vacate, with the
Appellate Court directing the trial court to
direct MTC to proceed in the Motion to
Vacate as requested by Padma; and

(d) Reversal of the May 22, 2019 Order allowing
MTC to withdraw the Motion to Vacate,

17
with the Appellate Court directing the trial
court to direct MTC to proceed in the
Motion to Vacate as requested by Padma.
Thus, Padma, individually, sought to appeal the
Probate Court Orders authorizing MTC, as Successor
Supervised Administrator, to: (1) withdraw the Motion
to Vacate previously filed by Padma, as the then
Independent Administrator, in the Law Division Proceedings related to the Settlement; and (2) distribute
the $2.1 Million Settlement, which Padma had previously negotiated, pursuant to the Settlement and
Distribution Orders entered in the Law Division Proceedings.
F.

MTC’s Motion to Dismiss Appeal–Illinois Appellate
Court

On December 30, 2019, MTC filed its Motion to
Dismiss Appeal (“Motion to Dismiss”), seeking to
dismiss Padma’s Appeal for lack of standing. (Pet.
App.15a-30a). In its Motion to Dismiss, MTC argued
that Illinois law has long made clear that, under
both Wrongful Death Act and Survival Act causes of
actions, “the cause of action must be brought by and
in the name of the representative or administrator of
the decedent’s estate.” Will v. Northwestern at 492.
(Pet.App.24a). Thus, on the basis of Will v. Northwestern, MTC argued that: (1) Padma, individually,
lacked standing to bring the Appeal, as she was not a
party to the underlying Lawsuit (Pet.App.26a); and
(2) Padma, had no standing to be a party to the
Appeal as a representative of the Estate, as she was
removed as Administrator for waste and mismanagement, and, in any event, Padma filed her Appeal

18
solely in her individual capacity as “beneficiary” of
the Estate. (Pet.App.27a).
Illinois law concerning Padma’s lack of standing
as to the Settlement and Distribution Orders entered
in the Law Division Proceedings is so definitively
clear (as outlined in Will v. Northwestern, and as
previously applied by Padma, as the then Administrator, against Anita), that, on February 20, 2020, the
Appellate Court dismissed Padma’ Appeal by granting
MTC’s Motion to Dismiss by entering an Order which
succinctly “GRANTED” MTC’s Motion to Dismiss
Padma’s Appeal, without comment. (Pet.App.3a-4a).
G.

Padma’s Petition for Rehearing–Illinois Appellate
Court

On March 12, 2020, Padma filed her Petition for
Rehearing on Dismissal Issued in Violation of Supreme
Court Rule 23 and Illinois Law (“Petition for Rehearing”), requesting the Appellate Court vacate its February 20, 2020 dismissal Order, denying MTC’s Motion
to Dismiss, and allowing Padma’s Appeal to be heard
on the merits. (Res.App.76a). On April 6, 2020, the
Appellate Court entered an Order denying Padma’s
Petition for Rehearing, again without comment.
(Pet.App.13a).
H. Padma’s Petition for Leave to Appeal-Illinois
Supreme Court
On May 12, 2020, Padma filed her Petition to

Appeal as a Matter of Right Pursuant to Supreme
Court Rule 317, or Alternatively, Petition for Leave
to Appeal Pursuant to Supreme Court Rule 315
(“PLA”) with the Illinois Supreme Court, Case No.
125994, asking for leave to appeal to the Illinois

19
Supreme Court on the basis of a purported violation
of her procedural due process rights as an Estate
heir and wrongful death claimant, or alternatively,
on the basis of a purported conflict with other divisions
of the Appellate Court as to the issue of her lack of
standing as a non-party to the Lawsuit. (Pet.App.31a54a).
On May 28, 2020, MTC filed its Answer to
Padma’s PLA (Res.App.62a-91a), asking the Illinois
Supreme Court to deny the PLA on the basis that: (1)
Padma was not being deprived of her control over the
Lawsuit in the Law Division Proceedings, as controlling
Illinois law, Will v. Northwestern, made clear that it
is the administrator alone (and not the heirs or
legatees) who possesses the sole right of control over
a wrongful death or survival action; and (2) the
Illinois First District Appellate Court’s Dismissal and
Rehearing Orders did not present a conflict with
other divisions of the Illinois Appellate Court that
warranted the exercise of the Illinois Supreme Court’s
supervisory authority. On September 30, 2020, the
Illinois Supreme Court denied Padma’s PLA, again
without comment. (Pet.App.1a).
I.

Padma’s Petition for a Writ of Certiorari

On or about February 27, 2021, Padma filed the
instant Petition for a Writ of Certiorari.

20

REASONS FOR DENYING CERTIORARI
I.

THE ADMINISTRATOR ALONE POSSESSES THE SOLE
RIGHT OF ACTION OR CONTROL OVER A WRONGFUL
DEATH ACT AND SURVIVAL ACT CAUSE OF ACTION

Because it is to the administrator that the right
of action accrues and it is the administrator who
possesses the sole right of action or control over a
Wrongful Death Act or Survival Act cause of action,
Padma, individually, possesses no property interest
in the settlement of the Law Division Lawsuit. As a
result, Padma was not deprived of procedural due
process by the Illinois Appellate Court’s dismissal of
Padma’s Appeal and denial of Padma’s Petition for
Rehearing.
Echoing failed arguments made in Padma’s PLA
to the Illinois Supreme Court (Pet.App.32a-54a), Padma
argues that the constitutional question of her procedural due process rights under the Fourteenth
Amendment arose as a result of the Illinois Appellate
Court’s purported “reversal” of the Probate Court’s
January 15, 2019 Order that she has standing as an
heir and legatee to be heard and protect her property
interests. (Pet.15-19).
Padma purposely and disingenuously mischaracterizes the Probate Court’s grant of limited standing
to Padma as an heir and legatee by self-creating an
absolute grant of standing as to all matters. Further,
Padma disingenuously mischaracterizes the Illinois
Appellate Court’s dismissal of Padma’s Appeal and
denial of Padma’s Petition for Rehearing as a reversal

21
of the Probate Court’s grant of standing to Padma as
an heir and legatee. (Pet.15). However, for the following
reasons, Padma has failed to establish her property
interests as an Estate heir/legatee and Wrongful
Death Act claimant, and thus, Padma does not possess
a property interest in the settlement of the Law
Division Action and therefore was not deprived of
due process by the Illinois Appellate Court’s dismissal
of Padma’s Appeal and/or the denial of Padma’s
Petition for Rehearing:
A. The Probate Court’s January 15, 2019 Order
Did Not Grant Padma Standing Regarding
the Law Division Lawsuit
As discussed above, the Petition misleads this
Court regarding the Probate Court’s January 15,
2019 Order by creatively and disingenuously:
(1) failing to state that Paragraph A specifically
denied Padma’s request that: “This Court
will supervise and provide direction to
Midland Trust relative to the Law Division
action, including whether to proceed with
the pending Motion to Vacate the purported
$2,100,000.00 settlement or to withdraw
said motion;” (Pet.App.11a, ¶ 12);
(2) failing to state that Paragraph B specifically
denied Padma’s request that: “Padma Rao
has standing to object and present evidence
as to Midland Trust’s proposed direction as
to whether to proceed with the pending
Motion to Vacate the purported $2,100,000.00
settlement or to withdraw said motion;”
(Pet.App.11a, ¶ 12); and

22
(3) said Order granted Paragraph C of the
Petition for Clarification’s prayer for relief
only as to Padma having limited standing
as an heir and legatee as to any Petition
filed before the Probate Court (Pet.App.11a,
¶ 12).
While Paragraph C of Padma’s Petition for
Clarification’s prayer for relief requested that the
Probate Court grant Padma “standing to address [the
Probate Court] regarding its supervision of [MTC],
including the [Probate Court]’s direction and approval
of distributions, as well as, objecting and presenting
evidence as to any petition brought before [the Probate
Court] to approve any purported settlement in the
Law Division Action” (Res.App.41a), consistent with
Will v. Northwestern (discussed in detail in the
following Part B), the Probate Court’s January 15,
2019 Order granted Paragraph C only as to Padma
having standing as an heir and legatee as to any
Petition filed before the Probate Court (Pet.App.11a,
¶ 12). Thus, contrary to what Padma would have this
Court believe, the Probate Court’s January 15, 2019
Order specifically denied Padma standing to object
and present evidence as to the Motion to Vacate,
while providing Padma no greater or special standing
than the general standing afforded to any other
Estate heir or legatee as an “interested person”
under the Illinois Probate Act, 755 ILCS 5/1-2.113.
3 “An ‘Interested person’ in relation to any particular action,
power or proceeding under this Act means one who has or
represents a financial interest, property right or fiduciary status
at the time of reference which may be affected by the action,
power or proceeding involved, including without limitation an
heir, legatee, creditor, person entitled to a spouse’s or child’s

23
B. Padma, Individually, Does Not Have a Property
Interest in the Law Division Action
i.

Padma, as an Heir or Legatee, Lacks
Standing as to Any Right of Action or
Control Over the Lawsuit

As MTC argued in its Motion to Dismiss Padma’s
Appeal (Pet.App.15a-30a), in the context of Wrongful
Death Act and Survival Act causes of actions, Illinois
case law is definitively clear concerning Padma’s
individual lack of standing with respect to the
Settlement and Distribution Orders entered in the
Law Division Proceedings. Specifically, “the cause of
action must be brought by and in the name of the
representative or administrator of the decedent’s
estate.” Will v. Northwestern at 289. “It is to this
administrator that the right of action accrues and it
is this administrator who possesses the sole right of
action or control over the suit; the beneficiaries or
heirs have neither a right of action nor any control.”
Id. and cases cited therein (emphasis added).
In Will v. Northwestern, Linda Will (“Linda”) and
George Wheeler, Jr. (“George”), as co-administrators
of the estate of their deceased son, Rashidi Wheeler
(“Rashidi”), filed a wrongful death and survival action
arising from the death of Rashidi, a football player at
Northwestern University (“Northwestern”), during
football practice. While co-administrator George filed
an affidavit stating he wanted to make demand of a
$16 million settlement, co-administrator Linda,
award and the representative. . . . This definition also applies to
the following terms: ‘interested party’, ‘person (or party) interested’
and ‘person (or party) in interest’.” 755 ILCS 5/1-2.11.

24
objected. The trial court directed the acceptance of
the $16 million settlement over the objections of coadministrator Linda, who objected because the
settlement did not include non-monetary items which
she, alone, insisted upon. Linda, both individually and
as co-administrator, and Rashidi’s brothers, heirs of
Rashidi’s estate and in their individual capacities,
appealed, contending that the trial court did not
have authority to direct acceptance of the settlement
over co-administrator Linda’s objection. Id. at 481491. The Will v. Northwestern Court, noting that
wrongful death and survival actions “must be brought
by and in the name of the representative or administrator of the decedent’s estate” and do “not create an
individual right in a beneficiary to bring suit”, dismissed the appeal with respect to Linda, individually, and Rashidi’s two brothers for lack of standing, finding that none of them were parties of record
to the underlying causes of action in their individual
capacities, as the underlying causes of action (wrongful
death and survival) must be brought by and in the
name of the representative or administrator of the
decedent’s estate. Id. at 492. The Will v. Northwestern
Court also noted:
As a personal representative of Rashidi’s
estate working not on her personal behalf
but on that of others, Linda, then, was an
agent of the court subject to the court’s
control and direction. She was to work in
the best interests of Rashidi’s estate and use
the utmost good faith to protect the interests
of his six beneficiaries. Principally, Linda’s
duties as coadministrator were to pay off
Rashidi’s debts (if any) and to insure that

25
his beneficiaries received their just benefits
from his estate quickly. Clearly, Linda’s
duties did not include an attempt to satisfy
her own personal interests; yet, that is
precisely what occurred here and what
prompted the trial court to intervene. Linda’s
dissatisfaction with the settlement offered
had nothing to do with the adequacy of the
amount suggested by Northwestern as a
demand and ordered by the trial court.

Id. at 495.
Here, even though the January 15, 2019 Probate
Court Order specifically denied Padma’s request to
object and present evidence as to the Motion to
Vacate, purposely and disingenuously relying solely
upon Paragraph C of the January 15, 2019 Probate
Order, Padma, individually, sought to appeal the
Probate Court Orders authorizing MTC, as Successor
Supervised Administrator of the Estate, to: (a) withdraw the Motion to Vacate previously filed by Padma,
as the then Supervised Administrator, in the Law
Division Proceedings related to the Settlement which
the Court found to be fair, reasonable and in the best
interests of the Estate; and (b) distribute the $2.1
Million Settlement pursuant to the Settlement and
Distributions Orders entered in the Law Division
Proceedings, which Orders were previously negotiated
by Padma to her own financial benefit. (Pet.App.23a).
However, the law concerning Padma’s individual lack
of standing is so definitively clear (as outlined in Will
v. Northwestern), the Illinois Appellate Court’s February 20, 2020 Order granted MTC’s Motion to Dismiss
without comment, and denied Padma’s Motion for
Rehearing on April 6, 2020, again without comment.

26
ii. Padma Is Judicially Estopped from
Advancing Her Position as to Her
Individual Standing as to Her Right of
Action or Control Over the Lawsuit
As referenced earlier and in direct contradiction
to Padma’s current argument, in the Law Division
Proceedings, Padma herself relied upon Will v.
Northwestern to argue that only the Administrator
of the Estate has any power to control the action and
that the Law Division Court should strike Anita’s
Motion for Sanctions on the basis that Anita, as a
non-party to the Lawsuit, lacked standing. (Pet.App.
25a-26a, ¶ 28).
Padma’s current argument as to her individual
standing as to the Lawsuit is inconsistent and she is
therefore judicially estopped from advancing such a
position. Judicial estoppel asserts that: (1) the same
party in separate actions (2) may not maintain totally
inconsistent positions (3) in those separate judicial
proceedings (4) when the positions are presented
under oath and (5) the party successfully maintained
the first position, receiving some benefit thereby.
Smeilis v. Lipkis, 2012 IL App (1st) 103385, ¶ 20. Here,
Padma, while the Administrator of the Estate, in the
Law Division Proceedings, relied upon Will v.
Northwestern to deny Anita from challenging her
decisions as to the Lawsuit claiming:
“Anita Rao was not a party to the instant
medical malpractice lawsuit. She has no
divisible or independent cause of action.
Only Dr. Rao, as the administrator of the
Estate, has the power to control the action.
Anita Rao lacks standing in this lawsuit. As
such, any court filing by her in this cause

27
was without authority and should be stricken.
The Estate requests that this Court strike
the appearance and Sanctions Motion filed
by Anita Rao.”
(Pet.App.25a-26a, ¶ 28).
Now, conveniently and inconsistently, Padma,
individually, in the Probate Proceedings, disingenuously
demands standing seeking control of or right of
action over the Lawsuit. Padma is judicially estopped
from advancing such a position.
iii. Padma, While Acting as Administrator of
the Estate, failed to File Written Objections
to or Appeal of the Settlement and Distribution Orders, and Her Motion to Vacate
Said Orders Constituted an Improper
Attempt to Satisfy Her Own Personal
Wish to Go to Trial
Despite her ex parte communication to Judge
Lyons that she did not assent to the settlement and
wished to go to trial, Padma, as the then Administrator,
who then had the sole right of control over the Law
Division Action, never filed any written objections to
or appeal of either the Settlement and Distribution
Orders. In fact, Padma, as the then Administrator,
proactively participated in the multi-day mediation
with Judge Panter, two-day pre-trial conference with
Judge Lyons and even negotiated the percentage
amount of the Wrongful Death Act settlement proceeds
to be distributed to her, individually, in her own
favor (70% to her and 30% to Anita), as outlined in
the Distribution Order. Padma, as the then Administrator, did proceed to file the Motion to Vacate the
Settlement and Distribution Orders. However, just

28
as in Will v. Northwestern, Padma’s role as the then
Administrator should not have included an improper
attempt to satisfy her own personal wish to go to
trial. It is important to note that Padma’s Motion to
Vacate the Settlement and Distribution Orders did
not allege that the $2.1 Million settlement was not
fair or reasonable and thus had nothing to do with
the adequacy of the settlement amounts.
Now, Padma conversely and disingenuously argues
that Will v. Northwestern does not apply to her, individually, because Will v. Northwestern involved
the appeal of a Law Division case rather than the
Probate Court or estate administration. (Pet.9-12).
However, as Padma’s Appeal involved the appeal of
Orders authorizing MTC, as Supervised Administrator,
to take certain actions in or related to the Law
Division Proceedings (i.e., withdrawing the Motion to
Vacate previously filed by Padma, as the then
Administrator, related to the $2.1 Million Settlement;
and distributing the $2.1 Million Settlement pursuant
to the Settlement and Distributions Orders entered
in the Law Division Proceedings), it directly relates
to MTC’s right of action or control over the Lawsuit,
a Wrongful Death Act and Survival Act cause of
action. As Will v. Northwestern definitively establishes
that it is the administrator alone (and not the beneficiaries or heirs) who possesses the sole right of
control over a Wrongful Death Act or Survival Act
cause of action, Padma is unable to establish her
property interests as an Estate heir or beneficiary
and Wrongful Death Act claimant. As a result, Padma,
individually, does not possess any property interest
in the Wrongful Death Act or Survival Act cause of

29
action and therefore is not being deprived of due
process by the Illinois Appellate Court’s Orders.
C. The Illinois Appellate Court’s Orders Do Not
Conflict with Decisions of This Court, as
Padma Does Not Have a Property Interest in
the Law Division Action
Contrary to Petitioner’s arguments (Pet.17-19),
the Illinois Appellate Court’s Orders do not conflict
with decisions of this Court. For example, in Fuentes
v. Shevin, 407 U.S. 67, 96 (1972), this Court held
that statutory prejudgment replevin provisions work
a deprivation of property without due process of law
insofar as they deny the right to a prior opportunity
to be heard before chattels are taken from their
possessor. It is clear in Fuentes that the Appellants,
whose chattels were seized pursuant to prejudgment
replevin provisions of Florida and Pennsylvania
statutes, had a property interest in their chattels.
Also, in Memphis Light, Gas & Water Div. v. Craft,
436 U.S. 1, 22 (1978), this Court held that due process
requires that a municipal utility company notify the
customer of the availability of an avenue of redress
within the organization before terminating utility
services. Again, it is clear in Memphis Light that the
customers, whose utility services were terminated for
nonpayment, had a significant property interest, as this
Court deemed utility services an essential necessity
of modern life.
In contrast to Fuentes, Memphis Light, Wolff v.
McDonnell, 418 U.S. 539, 557-558 (1974), and Goldberg
v. Kelly, 397 U.S. 254, 264 (1970), here, Padma, individually as an heir and legatee, is not being
deprived of her control over the Lawsuit in the Law

30
Division Proceedings, as Will v. Northwestern makes
clear that it is the administrator alone (and not the
beneficiaries or heirs) who possesses the sole right of
control over a Wrongful Death Act or Survival Act
cause of action. Will v. Northwestern at 289.
Thus, as: (1) the Probate Court denied Padma’s
request for the Probate Court to supervise and provide
direction to MTC relative to the Lawsuit, including
whether to proceed with the Motion to Vacate
(Pet.App.11a, ¶ 12); (2) the Probate Court denied
Padma’s request for the Probate Court to grant
Padma standing to object and present evidence as to
MTC’s proposed direction as to whether to proceed
with the pending Motion to Vacate (Pet.App.11a,
¶ 12); (3) the Probate Court did not grant Padma any
greater standing than that afforded to any heir or
legatee with respect to the Lawsuit (Pet.App.11a,
¶ 12); (4) Padma, individually, has no right of control
over the Lawsuit when she herself successfully argued
against Anita having any right of control over the
Lawsuit and is judicially estopped from doing so; (5)
there is no question of first impression that arises
under the Constitution of the United States or of the
State of Illinois as a result of the Illinois Appellate
Court’s Orders; and (6) Padma, while acting as
Administrator of the Estate, filed a Motion to Vacate
which improperly advanced her own personal wishes
rather than the best interests of the Estate, Padma’s
Petition must be denied.

31
II.

PADMA POSSESSES NO PROPERTY INTEREST THAT
WAS DEPRIVED OF PROCEDURAL DUE PROCESS BY
THE ILLINOIS APPELLATE COURT
A. There Is No Conflict Between the Illinois
Appellate Court’s Orders and Powell

Echoing failed arguments made in her PLA
(Pet.App.36a-37a, 49a), Padma mischaracterizes the
Illinois Supreme Court’s holding in In re Estate of
Powell, 2014 IL 115997, in support of her erroneous
proposition that “it is undisputed under Illinois law
that [Padma] has a direct property interest in the
wrongful death action, and thus procedural due process
requires [Padma] to have standing and be heard
regarding the Probate Court’s oversight of such action
and approval of a settlement compromising [Padma]’s
property rights in the action.” (Pet.19).
In Powell, the guardian of the estate of one of
the decedent’s beneficiaries filed a legal malpractice
cause action against attorneys/law firms that represented the administrator of the decedent’s estate in a
wrongful death cause of action. Powell never specifically discussed standing and the complaint was not
dismissed by the trial court for lack of standing.
Rather, the plaintiff’s complaint was dismissed by
the trial court for failure to allege that the attorneys/law firms who represented the decedent’s estate
in the wrongful death action owed a duty to plaintiff,
as a beneficiary of the decedent’s estate. The Illinois
Supreme Court ultimately held that an attorney who
files a wrongful death action on behalf of a decedent’s
estate owes a legal duty to the decedent’s beneficiaries at the distribution of funds phase of the
action and that the complaint sufficiently alleged that

32
defendants’ acts or omissions (in failing to have a
guardian appointed for plaintiff) proximately caused
actual damages. Id. at ¶¶ 20, 24. Here, as Padma’s
Appeal neither involved a legal malpractice claim
nor a claim against the attorneys who filed the
wrongful death action in this matter, Padma inappropriately attempts to expand Powell’s actual holding
to lend herself standing. As the Illinois Supreme
Court already agreed by denying Padma’s PLA, Powell
is inapplicable and presents no conflict worthy of the
Illinois Supreme Court’s or this Court’s attention.
B. Padma Is Not “Helpless” in This Matter
Padma disingenuously argues that:
“[t]he idea that [Padma] is helpless to have
any protection for her rights in the wrongful
death claim and the ‘grief, sorrow and
mental suffering’ damages she is due by
jury is antithetical to constitutional procedural
due process rights as well as common sense.
The resulting scenario that [Padma] is
entirely at the mercy of an attorney or
administrator who might be negligent, corrupt
or incompetent is utterly inimical to the
Fourteenth Amendment and its due process
guarantee.”
(Pet.20).
Padma has never been and is not “helpless” in
this matter, as: (i) her interests as heir/legatee are
protected by MTC’s duty as Successor Supervised
Administrator of the Estate to act in the best interests
of the Estate and its beneficiaries; and (ii) pursuant
to 755 ILCS 5/23-2, Padma, as an interested party,

33
may, but has not filed a petition to remove MTC as
the Successor Supervised Administrator of the Estate.
Padma is not entirely at the mercy of an attorney
or administrator who might be negligent, corrupt or
incompetent, as an administrator owes a duty to act
in the best interests of the Estate and its beneficiaries.
Will v. Northwestern at 494. The Probate Court,
after review of the Report to Court and Padma’s
Response thereto, authorized MTC as the Successor
Supervised Administrator of the Estate, in the best
interest of the Estate, to withdraw the Motion to
Vacate. If Padma believed MTC as the Administrator
of the Estate was negligent, corrupt or incompetent,
Padma, as an heir/legatee with standing as an
interested person, could have sought to remove MTC
as Administrator (just as Anita, relying upon 755
ILCS 5/23-2, successfully removed Padma as Administrator of the Estate for waste and mismanagement),
but failed to exercise her rights and remedies.
Additionally, at the time Padma was acting as
Administrator, despite Padma’s ex parte communication in the Law Division Proceedings that she did not
assent to the settlement and wished to go to trial,
Padma, as the then Administrator of the Estate, who
then had the sole right of control over the Law
Division Action, never filed any written objections to
or appeal of either the Wrongful Death Act or
Survival Act settlement outlined in the detailed
Settlement and Distribution Orders. In fact, as the
then Administrator, Padma proactively sought settlement, authorized and participated in the mediation
of the settlement, and proactively and successfully
negotiated the amount of the Wrongful Death Act
settlement proceeds to be distributed to her, individ-

34
ually, to the detriment of her sister, Anita. Thus,
even at the time when Padma, as the then Administrator, had the right of control over the Law Division
Action, she improperly exercised her rights by
attempting to satisfy her own personal wish to go to
trial rather than considering the best interests of the
Estate and its beneficiaries.
III. THERE IS NO COMPELLING REASON
COURT’S REVIEW

FOR

THIS

MTC urges, most respectfully, that review by
this Court is not appropriate in such a matter where:
(1) Illinois law is so definitely clear; and (2) the
Appellate Court’s dismissal of Padma’s Appeal and
denial of Padma’s Petition for Rehearing: (a) does not
arise in a case raising a federal question on which a
conflict has developed among federal circuit or state
supreme courts; (b) does not arise in a case in which
the lower court reached a decision in conflict with
this Court’s precedent; (c) does not arise in a case
presenting an important issue of federal law with
significant practical consequences; and/or (d) presents
no question under the Constitution of the United
States or of the State of Illinois which arises for the
first time.
The result in this matter has not been unfair to
Padma, as she, individually, had rights and remedies
which she failed to exercise. The Illinois Appellate
Court, after carefully considering the issue, dismissed
Padma’s Appeal and even denied her Petition for Rehearing, all without comment, as Illinois law is
definitely clear that the administrator alone possesses
the sole right of action or control over Wrongful
Death Act and Survival Act causes of action. Then,

35
as Illinois law is so definitive, the Illinois Supreme
Court denied Padma’s Petition for Leave to Appeal,
without comment, which was based upon her same
unfounded procedural due process arguments that
she makes herein.
Those rulings did not decide any federal question,
let alone a federal question that conflicts with a decision of another state supreme or United States court
of appeals. Petitioner has not cited a single case–
whether state or federal-which establishes that an
heir/legatee has standing to object to or control the
settlement of a Wrongful Death Act cause of action.
As a result, there is no compelling reason to unsettle
the decisions of the Illinois Appellate Court and/or
the Illinois Supreme Court.
Furthermore, the issues presented do not provide
an opportunity to this Court to resolve an important
question of federal law nor provide a holding of
general applicability. Other than Petitioner claiming
that the Due Process Clause of the Fourteenth
Amendment has been violated, no question of federal
law has been raised as Padma does not have an individual property interest in the right of action or
control over the Lawsuit. The matter before this
Court is limited to state issues–Illinois case law and
statutory provisions. Furthermore, the matter is so
fact-intensive it would be difficult for this Court to
craft a holding that is applicable to more than a few
cases, if not limited only to this case. As such, this
matter does not present this Court with the opportunity
it looks for–an ability to resolve conflicts between
state court rulings and federal court rulings, resolve
inconsistent rulings between federal courts, or resolve
federal questions of great importance to the United

36
States. Such a review by this Court only allows Petitioner another opportunity to seek relief from rulings
which were correctly decided against her.

CONCLUSION
The Illinois Appellate Court’s Orders are not inconsistent with the Probate Court and have not
deprived Padma, individually, of her procedural Due
Process rights. As Will v. Northwestern makes
definitively clear, it is the administrator alone (and
not the beneficiaries or heirs) who possesses the sole
right of control over a Wrongful Death Act or Survival
Act cause of action, such as the Lawsuit. Even when
Padma was acting as the Administrator of the Estate,
she proactively sought settlement, authorized and
participated in the mediation of the settlement, and
successfully and disproportionately negotiated the
amount of the wrongful death proceeds to be distributed
to her, individually, to the detriment of her sister,
Anita. Thus, even at the time when Padma, as the
then Administrator, had the sole right of control over
the Law Division Lawsuit, she improperly exercised
that right by attempting to satisfy her own personal
wish to go to trial, rather than considering the best
interests of the Estate and its beneficiaries. After
Padma was removed as Administrator of the Estate
for cause, Padma, individually, as heir/legatee, failed
to exercise her right to file a petition to remove MTC
for any purported negligence, corruption or incompetence and, instead, disingenuously maintains a selfserving and totally inconsistent position in the Probate
Proceedings (i.e., that while acting as the Admini-

37
strator, Will v. Northwestern applies to bar Anita’s
individual standing with respect to control of or right
of action over the Lawsuit but somehow does not
apply to bar Padma’s individual standing with respect
to the same request for control of or right of action
over the Lawsuit), and therefore should be judicially
estopped.
Lastly, Padma presents no issue arising from
the Appellate Court’s Orders that merits this Court’s
review. The Appellate Court’s dismissal of Padma’s
Appeal and denial of Padma’s Petition for Rehearing:
(1) does not arise in a case raising a federal question
on which a conflict has developed among federal
circuit or state supreme courts; (2) does not arise in a
case in which the lower court reached a decision in
conflict with this Court’s precedent; (3) does not arise
in a case presenting an important issue of federal
law with significant practical consequences; and (4)
presents no question under the Constitution of the
United States or of the State of Illinois which arises
for the first time. Therefore, there is no compelling
reason for this Court to revisit these conclusions. For
all the foregoing reasons, the Petition must be denied.

38
Respectfully submitted,
MARK R. SINGLER

COUNSEL OF RECORD

KATHRYN T. MCCARTY
PAUL S. FRANCISZKOWICZ
MICHAEL T. WURSTER
FMS LAW GROUP LLC
200 W. MONROE ST., SUITE 750
CHICAGO, IL 60606
(312) 332-6381
MARK.SINGLER@FMSLAWGROUP.COM

COUNSEL FOR RESPONDENT MIDLAND
TRUST COMPANY, AS SUCCESSOR
SUPERVISED ADMINISTRATOR WITH
WILL ANNEXED OF THE ESTATE OF
BASAVAPUNNAMMA K. RAO, DECEASED
APRIL 8, 2021

